                                                                      AUDIT




             U.S. FISH AND WILDLIFE SERVICE WILDLIFE AND
             SPORT FISH RESTORATION PROGRAM GRANTS
             Awarded to the State of New York, Department of Environmental
             Conservation, From April 1, 2009, Through March 31, 2011




Report No.: R-GR-FWS-0008-2012                                         November 2012
                                                                                         November 2, 2012

                                           AUDIT REPORT
Memorandum

To:            Director
               U.S. Fish and Wildlife Service

From:          Suzanna I. Park
               Director of External Audits

Subject:       Audit—U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration
               Program Grants Awarded to the State of New York, Department of
               Environmental Conservation, From April 1, 2009, Through March 31, 2011
               Report No. R-GR-FWS-0008-2012

        This report presents the results of our audit of costs claimed by the State of New York
(State), Department of Environmental Conservation (Department), under grants awarded by the
U.S. Fish and Wildlife Service (FWS). FWS provided the grants to the State under the Wildlife
and Sport Fish Restoration Program. The audit included claims totaling $103.5 million on
25 grants that were open during State fiscal years that ended March 31, 2010, and March 31,
2011 (see appendix 1). The audit also covered the Department’s compliance with applicable
laws, regulations, and FWS guidelines, including those related to the collection and use of
hunting and fishing license revenues and the reporting of program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. We questioned costs totaling $32,997 representing the ineligible
Federal share on the Sportsman’s Education Program grant (W-125-S-37). We also identified
deficiencies related to (1) inadequate assent legislation, and (2) inadequate internal controls over
equipment management.

      We provided a draft report to FWS for a response. We summarized Department and FWS
Region 5 responses to the recommendations, as well as our comments on the responses after the
recommendations. We list the status of the recommendations in Appendix 3.

        Please respond in writing to the findings and recommendations included in this report by
January 31, 2013. Your response should include information on actions taken or planned,
targeted completion dates, and titles of officials responsible for implementation. Please address
your response to:




                           Office of Audits, Inspections, and Evaluations | Reston, VA
                              Director of External Audits
                              U.S. Department of the Interior
                              Office of Inspector General
                              12030 Sunrise Valley Drive, Suite 230
                              Reston, VA 20191

       If you have any questions regarding this report, please contact the audit team leader,
Chris Krasowski, or me at 703-487-5345.

cc: Regional Director, Region 5, U.S. Fish and Wildlife Service




                                                2
Table of Contents
Introduction ............................................................................................................. 1
   Background .......................................................................................................... 1
   Objectives ............................................................................................................ 1
   Scope ................................................................................................................... 1
   Methodology........................................................................................................ 1
   Prior Audit Coverage ........................................................................................... 2
Results of Audit ...................................................................................................... 4
   Audit Summary ................................................................................................... 4
   Findings and Recommendations.......................................................................... 4
Appendix 1 ............................................................................................................ 10
Appendix 2 ............................................................................................................ 11
Appendix 3 ............................................................................................................ 12
Introduction
Background
The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport
Fish Restoration Act (Acts) 1 established the Wildlife and Sport Fish Restoration
Program (Program). Under the Program, the U.S. Fish and Wildlife Service
(FWS) provides grants to States to restore, conserve, manage, and enhance their
sport fish and wildlife resources. The Acts and Federal regulations contain
provisions and principles on eligible costs and allow FWS to reimburse States up
to 75 percent of the eligible costs incurred under the grants. The Acts also require
that hunting and fishing license revenues be used only for the administration of
the State’s fish and game agency. Finally, Federal regulations and FWS guidance
require States to account for any income they earn using grant funds.

Objectives
We conducted this audit to determine if the State of New York (State),
Department of Environmental Conservation (Department)—

       •    claimed the costs incurred under the Program grants in accordance with
            the Acts and related regulations, FWS guidelines, and grant agreements;
       •    used State hunting and fishing license revenues solely for fish and wildlife
            program activities; and
       •    reported and used program income in accordance with Federal regulations.

Scope
Audit work included claims totaling approximately $103.5 million on the
25 grants open during State fiscal years (SFYs) that ended March 31, 2010, and
March 31, 2011 (see appendix 1). We report only on those conditions that existed
during this audit period. We performed our audit at Department headquarters in
Albany, NY, and visited the Bureau of Marine Resources, three regional offices,
one sub-office, two operations centers, four wildlife management areas, one
natural resources management area, one game farm, one fisheries research station,
three fish hatcheries, and two boat access areas (see appendix 2). We performed
this audit to supplement—not replace—the audits required by the Single Audit
Act Amendments of 1996 and by Office of Management and Budget Circular
A-133.

Methodology
We conducted our performance audit in accordance with the “Government
Auditing Standards” issued by the Comptroller General of the United States.
Those standards require that we plan and perform the audit to obtain sufficient,

1
    16 U.S.C. §§ 669 and 777, as amended, respectively.



                                                                                      1
appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted
auditing procedures as necessary under the circumstances. We believe that the
evidence obtained from our tests and procedures provides a reasonable basis for
our findings and conclusions based on our audit objectives.

Our tests and procedures included—

   •   examining the evidence that supports selected expenditures charged to the
       grants by the Department;
   •   reviewing transactions related to purchases, direct costs, drawdowns of
       reimbursements, in-kind contributions, and program income;
   •   interviewing Department employees to ensure that personnel costs charged
       to the grants were supportable;
   •   conducting site visits to inspect equipment and other property;
   •   determining whether the Department used hunting and fishing license
       revenues solely for the administration of fish and wildlife program
       activities; and
   •   determining whether the State passed required legislation assenting to the
       provisions of the Acts.

We also identified the internal controls over transactions recorded in the labor and
license fee accounting systems and tested their operation and reliability. Based on
the results of initial assessments, we assigned a level of risk to these systems and
selected a judgmental sample of transactions for testing. We did not project the
results of the tests to the total population of recorded transactions or evaluate the
economy, efficiency, or effectiveness of the Department’s operations.

Prior Audit Coverage
On June 27, 2008, we issued “Audit on the U.S. Fish and Wildlife Service
Wildlife and Sport Fish Restoration Program Grants Awarded to the State of New
York, Department of Environmental Conservation, Division of Fish, Wildlife, and
Marine Resources” (R-GR-FWS-0015-2007). We followed up on all 17
recommendations in the report and found that the U.S. Department of the Interior,
Office of the Assistant Secretary for Policy, Management and Budget (PMB)
considered 10 recommendations resolved and implemented and 7
recommendations as resolved but not yet implemented. As discussed in the
Findings and Recommendations section of this report, we are repeating six
unimplemented recommendations (D.1 – D.6) from R-GR-FWS-0015-2007,
which relate to inadequate controls over equipment management.

Our current audit scope included the areas covered in the prior audit. Where
conditions exist that still need improvement, we reported them in the Findings and
Recommendations section of this report and both repeat the relevant
recommendations from our prior report and make new recommendations.


                                                                                    2
Documentation on the implementation of repeat recommendations should be sent
to PMB.

We reviewed single audit reports and comprehensive annual financial reports for
SFYs 2009 and 2010. None of these reports contained any findings that would
directly affect the Program grants.




                                                                                  3
Results of Audit
Audit Summary
We found that the Department complied, in general, with applicable grant
agreement provisions and requirements of the Acts, regulations, and FWS
guidance. We identified, however, several conditions that resulted in the findings
listed below, including questioned costs totaling $32,997.

Questioned Costs. We questioned $32,997 representing the ineligible Federal
share on the Sportsman Education Program grant (W-125-S-37) due to an
overstatement of hunter education volunteer instructor hours reported for use as
in-kind match.

Inadequate Assent Legislation. The most recent State bill includes a clause that
appears to allow for the diversion of license revenue.

Inadequate Internal Controls over Equipment Management. We repeated the
six recommendations from our prior audit report. Similar conditions exist since
the Department has not committed any resources to correcting the internal control
weaknesses.

Findings and Recommendations
A. Questioned Cost — Ineligible In-Kind Match — $32,997

Under the Program, States must use “State matching” (non-Federal) funds to
cover at least 25 percent of costs incurred in performing projects under the grants.
Noncash (“in-kind”) contributions may be used to meet States’ matching share of
costs, and as with costs claimed for reimbursement, States must provide
documentation supporting the value of these contributions. The State’s matching
share of costs on its Sportsman Education Program grant (W-125-S-37) included
in-kind contributions consisting of the value of volunteer instructor hours.

The Department maintains a database of hunter education in-kind volunteer
instructor hours. A sample of the time and activity records that support the
information in the database showed a systemic problem with recorded hours that
are scanned into the database. We compared the information from the time and
activity records to the database used for reporting hours to FWS and found that
the Department overstated volunteer hours by 346. In addition, the Department
did not have an approved in-kind hourly rate by FWS on grant W-125-S-37. We
therefore used the approved rate of $31.79 from the prior grant period
(W-125-S-36).




                                                                                     4
The table below identifies the ineligible overstated hours by class.

                       SFY 2010 Volunteer Hours
                          Time and              Number
                           Activity              Hours
             Class ID#     Record     Database Overstated
           H1001006           0.5          5.0      4.5
           H1001006           0.5         15.0     14.5
           H1001006           1.0         10.0      9.0
           H1001006           1.0         10.0      9.0
           H1001006           1.0         10.0      9.0
           H1001006           0.5          5.0      4.5
           H1017904           0.5          5.0      4.5
           H1017904           0.5         20.0     19.5
           H1017904           0.5         20.0     19.5
           H1026007           3.5         35.0     31.5
           H1026007           0.5          5.0      4.5
           H1026007           1.5         15.0     13.5
           H1031015           1.5         15.0     13.5
           H1031015           8.0         80.0     72.0
           H1039004          12.0         62.0     50.0
           H1040015           1.5         15.0     13.5
           H1040015           1.5         10.0      8.5
           H1040015           1.5         15.0     13.5
           H1056003           0.5          5.0      4.5
           H1056003           0.5          5.0      4.5
           H1057009           1.0         10.0      9.0
           B1021001           1.5         15.0     13.5
           TOTALS            41.0       387.0    346.0

The Code of Federal Regulations (CFR), 43 CFR § 12.64(b)(6), outlines
requirements for matching or cost sharing records. It states that, to the extent
feasible, volunteer services will be supported by the same methods that the
organization uses to support the allocability of regular personnel costs.

The scanning process was unable to differentiate decimal points from whole
numbers resulting in overstated volunteer hours. For example, 2.5 hours reported
on the time and activity report were reported as 25 hours in the database, resulting
in a significant overstatement of volunteer hours actually worked. In addition, the
Department, which has undergone personnel changes within the Program, did not
have policy and procedures in place to make staff aware of their responsibilities


                                                                                   5
with respect to identifying and supporting a rate to be used for in-kind match. The
Department overstated its 25 percent matching share of $10,999 (346 hours at
$31.79 per hour) for in-kind contributions from volunteer hours claimed on grant
W-125-S-37. We are therefore questioning the Federal share of $32,997
(75 percent).

 Recommendations

 We recommend that FWS:

    1. Resolve the ineligible costs of $32,997;

    2. Ensure that the Department implements procedures necessary to
       correct weaknesses in data entry scanning process; and

    3. Ensure that the Department implements policy and procedures
       identifying responsibility for all program and financial personnel
       associated with the Sportsman Education Program grant, including
       establishing and supporting a rate for in-kind match.


Department Response
Department officials concurred with the finding and recommendations.

FWS Response
FWS Regional officials concurred with the finding and recommendations and will
work with the Department on a corrective action plan.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including—

   •   specific action(s) taken or planned to address the recommendation;
   •   targeted completion dates;
   •   titles of officials responsible for implementing the actions taken or
       planned; and
   •   verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

B. Inadequate Assent Legislation

For our audit period, the State’s legislation assented to the Acts and included a
prohibition against diverting license fees for purposes other than the
administration of its fish and wildlife activities. During our audit, we determined
that the most recent State legislation bill no. A.9059--D, signed March 30, 2012,


                                                                                      6
includes a clause (§ 13-a) that appears to allow for the transfer of special revenue
funds, which would include Federal Program funds as well as State license
revenue. It states: “Notwithstanding any law to the contrary, and in accordance
with section 4 of the state finance law, the comptroller is hereby authorized and
directed to transfer, at the request of the director of the budget, up to $38 million
from the unencumbered balance of any special revenue fund or account, or
combination of funds and accounts, to the community projects fund.”

According to 50 CFR § 80.3, a State “may participate in the benefits of the Act(s)
only after it has passed legislation which assents to the provisions of the Acts and
has passed laws for the conservation of fish and wildlife including a prohibition
against the diversion of license fees paid by hunters and sport fishermen to
purposes other than the administration of the fish and wildlife agency * * *.”

In addition, 50 CFR § 80.4(b) states: “For the purposes of this rule, administration
of the State fish and wildlife agency includes only those functions required to
manage the fish and wildlife-oriented resources of the State for which the agency
has authority under State law.”

The State’s current legislation could be interpreted as not prohibiting the use of
Program grant and State license revenues for other than fish and wildlife
purposes. Failure to enact assent legislation could result in the State becoming
ineligible to participate in the Program.

 Recommendation

 We recommend that FWS require the Department to work with the State
 legislature to ensure assent legislation is passed that restricts the use of
 Program grant funds and State license revenues to operations related to the
 administration of the fish and wildlife resources.


Department Response
Department officials stated that the Legislature is not expected to be in session
prior to January 2013. The Executive branch controls expenditures and the section
at issue requires that the Budget Director exercise discretion in the sweeping of
funds. In keeping with the Executive’s intention to exclude the Conservation Fund
and other similarly situated funds from being swept, the Budget Director has
written a memo to the Governor’s Counsel stating in no-uncertain terms that he
will not ask for any of those funds to be swept. The Assistant Governor’s Counsel
has also committed to working with FWS to ensure that language is included in
the 2013-14Executive Budget which will be presented to the legislature in
January 2013 for consideration.




                                                                                        7
FWS Response
FWS Regional officials concurred with the finding and recommendation and will
work with the Department on a corrective action plan.

OIG Comments
Based on the Department and FWS responses, additional information is needed in
the corrective action plan including—

   •   specific action(s) taken or planned to address the recommendation;
   •   targeted completion dates;
   •   titles of officials responsible for implementing the actions taken or
       planned; and
   •   verification that FWS headquarters officials reviewed and approved of
       actions taken or planned by the Department.

C. Inadequate Internal Controls Over Personal Property Management

Federal and State regulations require grantees to maintain adequate control over
personal property. Equipment purchased with Program funds and license revenue
must be used for their intended purposes. Our prior audit report (R-GR-FWS-
0015-2007) identified six recommendations related to inadequate controls over
personal property management. A Department official stated that no resources
were available to correct the identified deficiencies and all six recommendations
remain unimplemented.

We conducted a limited review of the personal property management systems and
found that equipment items were—(1) not tagged, (2) not identified in the
Property Management Databases, and (3) not at the assigned location. We
reported a similar condition, in addition to other internal control weakness cited in
the prior audit report, we therefore are repeating all six recommendations
(D.1 – D.6), which will be tracked under the resolution process for the prior audit.




                                                                                   8
Repeat Recommendations

We recommend that FWS require the Department to:

    1. Obtain approval for future equipment purchases until the Department
       ensures that the property management system includes a funding
       source field;

    2. Develop a clear and consistent definition of equipment that is utilized in
       property and procurement regulations, policies, and procedures
       (including dollar thresholds and sensitivity levels, as appropriate);

    3. Ensure that personnel using the equipment are accountable and
       responsible for the equipment;

    4. Train Bureau of Marine Resources staff responsible for the coding of
       purchases to ensure that all purchases of equipment are properly
       classified; that property management, transportation services, and the
       local property coordinator are notified of such purchases; and that tags
       are received and attached to all equipment;

    5. Develop policies and implement procedures to ensure that property
       transactions forms for all equipment are submitted to property
       management and transportation services when required; and

    6. Provide documentation to FWS that it has completed its annual
       verification and certification of property through a physical hands-on
       inspection.


Department Response
Department officials concurred with the finding and repeat recommendations.

FWS Response
FWS Regional officials concurred with the finding and repeat recommendations
and will work with the Department on a corrective action.

OIG Comments
The implementation of these repeat recommendations will be tracked under the
prior audit report. Accordingly, FWS should send documentation regarding the
implementation of these repeat recommendations to the U.S. Department of the
Interior, Office of the Assistant Secretary for Policy, Management, and Budget.




                                                                                    9
Appendix 1
                        State of New York
           Department of Environmental Conservation
            Financial Summary of Review Coverage
             April 1, 2009, Through March 31, 2011

     Grant        Grant         Claimed          Questioned
    Number       Amount          Costs         Ineligible Costs
 F-38-D-22         $876,000      $1,159,575
 F-38-D-23           876,000       1,082,068
 F-38-D-24         4,655,242         779,749
 F-49-R-7         15,476,105     16,297,224
 F-49-R-8         21,368,779
 F-50-E-10           665,271         945,621
 F-50-E-11         3,681,572         687,743
 F-52-D-4          2,712,508         832,951
 F-53-R-1          1,171,696       2,128,981
 F-54-R-1            353,713         623,228
 F-55-R-1          8,087,439       8,335,454
 F-56-R-1          1,676,134       2,731,418
 F-57-R-1            720,000         789,672
 F-58-R-1            889,086       1,057,159
 F-59-R-1          2,541,536       3,259,800
 F-60-D-1          1,800,000      10,115,500
 F-61-R-1         24,096,084       7,337,115
 F-104-D-1         2,506,660       2,073,279
 F-105-D-1           243,640
 FW-48-R-1         6,861,175         948,133
 FW-49-T-1        11,991,807       2,271,180
 W-125-S-37       11,607,980       7,173,094          $32,997
 W-175-D-2        11,957,121       5,131,217
 W-176-L-1           105,476
 WE-173-G-19      41,540,945      27,727,530
 Total         $178,461,969    $103,487,691           $32,997




                                                                  10
Appendix 2
                  State of New York
       Department of Environmental Conservation
                     Sites Visited

                      Headquarters
                       Albany, NY

              Bureau of Marine Resources
                   East Setauket, NY

                    Regional Offices
               Region 1 - Stony Brook, NY
                Region 3 - New Paltz, NY
               Region 6 – Watertown, NY

                        Sub-Office
                       Cortland, NY

                  Operations Center
                    Brownville, NY
         Ridge Hunter Check Station (Ridge, NY)

               Wildlife Management Areas
                         Ashland
                     Connecticut Hill
                       Happy Valley
                        Tivoli Bay

          Natural Resources Management Area
                      Rocky Point

                      Game Farm
                   Richard E. Reynolds

               Fisheries Research Station
       Lake Ontario Research Station at Cape Vincent

                     Fish Hatcheries
                         Oneida
                          Rome
                      Salmon River

                      Boat Access
                      Godfrey Point


                                                       11
                              Mattituck Creek
Appendix 3
                              State of New York
                 Department of Environmental Conservation
              Status of Audit Findings and Recommendations

Recommendations                Status                 Action Required
A.1, A.2, A.3, and B FWS management              Based on the FWS
                     concurred with the          response, additional
                     recommendations, but        information is needed in
                     additional information is   the corrective action plan,
                     needed.                     as listed in the Findings
                                                 and Recommendations
                                                 section under OIG
                                                 Comments. We will refer
                                                 the recommendations not
                                                 resolved and/or
                                                 implemented at the end
                                                 of 90 days (after
                                                 January 31, 2013) to the
                                                 Assistant Secretary for
                                                 Policy, Management and
                                                 Budget for resolution
                                                 and/or tracking of
                                                 implementation.

Repeat                Repeat recommendations     Provide documentation
Recommendations       from our prior report      regarding the
C.1, C.2, C.3, C.4,   (R-GR-FWS-0015-2007,       implementation of these
C.5, and C.6          recommendations D.1,       repeat recommendations
                      D.2, D.3, D.4, D.5, and    to PMB.
                      D.6). PMB considers
                      these recommendations
                      resolved but not
                      implemented.




                                                                          12
          Report Fraud, Waste,
          and Mismanagement
              Fraud, waste, and mismanagement in
             Government concern everyone: Office
            of Inspector General staff, Departmental
             employees, and the general public. We
                actively solicit allegations of any
            inefficient and wasteful practices, fraud,
                 and mismanagement related to
             Departmental or Insular Area programs
                 and operations. You can report
                allegations to us in several ways.


By Internet:       www.doioig.gov

By Phone:          24-Hour Toll Free:                800-424-5081
                   Washington Metro Area:            202-208-5300

By Fax:            703-487-5402

By Mail:           U.S. Department of the Interior
                   Office of Inspector General
                   Mail Stop 4428 MIB
                   1849 C Street, NW.
                   Washington, DC 20240
